                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 
                

                



                     Fiscal Year 2012
                     Federal Information Security
                     Management Act Report
                     Status of EPA’s Computer Security
                     Program

                     Report No. 13-P-0032                    October 26, 2012




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                       Rudolph M. Brevard
                                                           Cheryl Reid
                                                           Vincent Campbell
                                                           Albert Schmidt
                                                           Nii-Lantei Lamptey
                                                           Rodney Allison
                                                           Kyle Denning

Abbreviations

AC            Access Control
ASSERT        Automated System Security Evaluation and Remediation Tracking
BIA           Business Impact Analysis
CA            Security Assessment and Authorization
CIO           Chief Information Officer
CPIC          Capital Planning and Investment Control
DSS           Directory Service System
EPA           U.S. Environmental Protection Agency
FCD           Federal Continuity Directive
FDCC          Federal Desktop Core Configurations
FIPS          Federal Information Processing Standards
FISMA         Federal Information Security Management Act
GAO           U.S. Government Accountability Office
HSPD          Homeland Security Presidential Directive
IFMS          Integrated Financial Management System
MOU           Memorandum of Understanding
NIST          National Institute of Standards and Technology
OEI           Office of Environmental Information
OIG           Office of Inspector General
OMB           Office of Management and Budget
PIV           Personal Identification Verification
PM            Program Management
POA&M         Plan of Action & Milestones
SA            System and Services Acquisitions
SIEM          Security Incident and Event Management
SP            Special Publication
TT&E          Test, Training, and Exercise
USGCB         United States Government Configuration Baseline
US-CERT       United States Computer Emergency Readiness Team


  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                              THE INSPECTOR GENERAL




                                        October 26, 2012

MEMORANDUM

SUBJECT:       Fiscal Year 2012 Federal Information Security Management Act Report:
               Status of EPA’s Computer Security Program
               Report No. 13-P-0032


FROM:          Arthur A. Elkins, Jr.

TO:            Lisa P. Jackson
               Administrator


Attached is the Office of Inspector General’s (OIG’s) Fiscal Year 2012 Federal Information
Security Management Act (FISMA) Reporting Template, as prescribed by the Office of
Management and Budget (OMB). We performed this review in accordance with generally
accepted government auditing standards. These standards require the team to plan and perform
the review to obtain sufficient and appropriate evidence to provide a reasonable basis for the
findings and conclusions based on the objectives of the review.

We believe the evidence obtained provides a reasonable basis for our findings and conclusions,
and in all material respects, meets the FISMA reporting requirements prescribed by OMB. In
accordance with OMB reporting instructions, I am forwarding this report to you for submission,
along with the Agency’s required information, to the Director of OMB.

The audit work performed during the FISMA review disclosed that the Agency needs to
make improvements in the following programs: (1) Continuous Monitoring Management,
(2) Configuration Management, and (3) Risk Management. The Agency concurred with our
findings.

In addition, audit work during fiscal year 2012 noted significant weaknesses with several aspects
of EPA’s information security program. Appendix A summarizes the results from these audit
reports.
Inspector General                               2012
                                               Annual FISMA
                                                  Report
Section Report




             Environmental Protection Agency
Section 1: Continuous Monitoring Management
1.1      Has the Organization established an enterprise-wide continuous monitoring program that assesses the security state of information systems
         that is consistent with FISMA requirements, OMB policy, and applicable NIST guidelines? Besides the improvement opportunities that may
         have been identified by the OIG, does the program include the following attributes:
          No
          1.1.1   Documented policies and procedures for continuous monitoring (NIST 800-53: CA-7)
                  Yes
          1.1.2   Documented strategy and plans for continuous monitoring (NIST 800-37 Rev 1, Appendix G)
                  No
                           Comments:       The Agency finalized a Continuous Monitoring (CM) Strategy in June 2012. However, the Agency has not yet fully
                                           implemented a plan for CM.
          1.1.3   Ongoing assessments of security controls (system-specific, hybrid, and common) that have been performed based on the approved
                  continuous monitoring plans (NIST 800-53, NIST 800-53A)
                  No
                           Comments:       The Agency performs assessments of system security controls. However, the Agency is working towards implementing a
                                           continuous monitoring plan that includes ongoing assessments of security controls.
          1.1.4   Provides authorizing officials and other key system officials with security status reports covering updates to security plans and security
                  assessment reports, as well as POA&M additions and updates with the frequency defined in the strategy and/or plans (NIST 800-53,
                  NIST 800-53A)
                  Yes
1.2      Please provide any additional information on the effectiveness of the Organization’s Continuous Monitoring Management Program that was
         not noted in the questions above
          The OIG has issued several reports from Fiscal Years 2011 and 2012 identifying continued weaknesses in the Agency's continuous monitoring
          program.
                  Comments:      Recently, the OIG reported that the Agency is not conducting follow-up with system owners to confirm that identified vulnerabilities
                                 have been addressed or request that system owners provide a response or evidence that the vulnerabilities have been addressed.

Section 2: Configuration Management



OIG Report - Annual 2012                                                                                                                                           Page 1 of 15
Section 2: Configuration Management
2.1      Has the Organization established a security configuration management program that is consistent with FISMA requirements, OMB policy, and
         applicable NIST guidelines? Besides the improvement opportunities that may have been identified by the OIG, does the program include the
         following attributes:
          No
          2.1.1    Documented policies and procedures for configuration management
                   Yes
          2.1.2    Standard baseline configurations defined
                   Yes
          2.1.3    Assessing for compliance with baseline configurations
                   No
          2.1.4    Process for timely, as specified in Organization policy or standards, remediation of scan result deviations
                   No
          2.1.5    For Windows-based components, FDCC/USGCB secure configuration settings fully implemented and any deviations from
                   FDCC/USGCB baseline settings fully documented
                   No
          2.1.6    Documented proposed or actual changes to hardware and software configurations
                   Yes
          2.1.7    Process for timely and secure installation of software patches
                   No
          2.1.8    Software assessing (scanning) capabilities are fully implemented (NIST 800-53: RA-5, SI-2)
                   No
          2.1.9    Configuration-related vulnerabilities, including scan findings, have been remediated in a timely manner, as specified in Organization
                   policy or standards. (NIST 800-53: CM-4, CM-6, RA-5, SI-2)
                   No
          2.1.10   Patch management process is fully developed, as specified in Organization policy or standards. (NIST 800-53: CM-3, SI-2)
                   No



OIG Report - Annual 2012                                                                                                                                   Page 2 of 15
Section 2: Configuration Management
2.2      Please provide any additional information on the effectiveness of the Organization’s Configuration Management Program that was not noted in
         the questions above.
          In July 2012, the Government Accountability Office (GAO) issued report "INFORMATION SECURITY: Environmental Protection Agency
          Needs to Resolve Weaknesses," Report No. GAO-12-696.
                  Comments:      GAO reported that EPA had not always implemented configuration management controls. Although the Agency has an automated tool
                                 in place for managing changes, officials could only provide records of approved changes for four of the six systems reviewed.
                                 Information for the other two systems consisted only of e-mails describing the changes. Change information provided by the system
                                 owners varied in content, and the Agency-wide configuration management guide did not instruct them on how such records should be
                                 documented. Further, EPA had not securely configured its networks and databases in accordance with NIST guidance and Web
                                 applications, and operating systems were not always configured to the most restrictive settings in accordance with NIST guidance.
                                 Some EPA information systems and network devices were running outdated software that was no longer supported by the
                                 manufacturer, resulting in EPA being unable to effectively patch them for vulnerabilities.

Section 3: Identity and Access Management
3.1      Has the Organization established an identity and access management program that is consistent with FISMA requirements, OMB policy, and
         applicable NIST guidelines and identifies users and network devices? Besides the improvement opportunities that have been identified by the
         OIG, does the program include the following attributes:
          Yes
          3.1.1   Documented policies and procedures for account and identity management (NIST 800-53: AC-1)
                  Yes
          3.1.2   Identifies all users, including federal employees, contractors, and others who access Organization systems (NIST 800-53, AC-2)
                  No
          3.1.3   Identifies when special access requirements (e.g., multi-factor authentication) are necessary.
                  Yes
          3.1.4   If multi-factor authentication is in use, it is linked to the Organization's PIV program where appropriate (NIST 800-53, IA-2)
                  Yes




OIG Report - Annual 2012                                                                                                                                      Page 3 of 15
Section 3: Identity and Access Management
          3.1.5    Organization has adequately planned for implementation of PIV for logical access in accordance with government policies (HSPD 12,
                   FIPS 201, OMB M-05-24, OMB M-07-06, OMB M-08-01, OMB M-11-11)
                   Yes
          3.1.6    Ensures that the users are granted access based on needs and separation of duties principles
                   Yes
          3.1.7    Identifies devices with IP addresses that are attached to the network and distinguishes these devices from users (For example: IP
                   phones, faxes, printers are examples of devices attached to the network that are distinguishable from desktops, laptops or servers that
                   have user accounts)
                   Yes
          3.1.8    Identifies all User and Non-User Accounts (refers to user accounts that are on a system. Examples of non-user accounts are accounts
                   such as an IP that is set up for printing. Data user accounts are created to pull generic information from a database or a
                   guest/anonymous account for generic login purposes that are not associated with a single user or a specific group of users)
                   Yes
          3.1.9    Ensures that accounts are terminated or deactivated once access is no longer required
                   No
          3.1.10   Identifies and controls use of shared accounts
                   No
3.2      Please provide any additional information on the effectiveness of the Organization’s Identity and Access Management Program that was not
         noted in the questions above.
          In July 2012, GAO issued report "INFORMATION SECURITY: Environmental Protection Agency Needs to Resolve Weaknesses," Report
          No. GAO-12-696.
                   Comments:      GAO reported that (1) EPA did not always protect network boundaries, (2) EPA users were not always properly identified and
                                  authenticated, (3) authorization controls were not fully implemented, and (4) EPA did not always implement physical controls. The
                                  OIG also issued a report in September 2012, "EPA Should Improve Management Practices and Security Controls for Its Network
                                  Directory Service System and Related Servers," Report No. 12-P-0836. OIG reported EPA is not managing key system
                                  documentation, system administration functions, and the granting and monitoring of privileged accounts of its directory service system
                                  (DSS). EPA is not performing DSS user account administration practices, and does not have a management oversight process to
                                  ensure that the regions and program offices are managing their delegated responsibilities in accordance with Agency and federal
                                  requirements.

OIG Report - Annual 2012                                                                                                                                            Page 4 of 15
Section 4: Incident Response and Reporting
4.1      Has the Organization established an incident response and reporting program that is consistent with FISMA requirements, OMB policy, and
         applicable NIST guidelines? Besides the improvement opportunities that may have been identified by the OIG, does the program include the
         following attributes:
          Yes
          4.1.1   Documented policies and procedures for detecting, responding to and reporting incidents (NIST 800-53: IR-1)
                  Yes
          4.1.2   Comprehensive analysis, validation and documentation of incidents
                  Yes
          4.1.3   When applicable, reports to US-CERT within established timeframes (NIST 800-53, 800-61, and OMB M-07-16, M-06-19)
                  Yes
          4.1.4   When applicable, reports to law enforcement within established timeframes (SP 800-86)
                  No
          4.1.5   Responds to and resolves incidents in a timely manner, as specified in Organization policy or standards, to minimize further damage.
                  (NIST 800-53, 800-61, and OMB M-07-16, M-06-19)
                  Yes
          4.1.6   Is capable of tracking and managing risks in a virtual/cloud environment, if applicable
                  Yes
          4.1.7   Is capable of correlating incidents
                  Yes
          4.1.8   There is sufficient incident monitoring and detection coverage in accordance with government policies (NIST 800-53, 800-61, and
                  OMB M-07-16, M-06-19)
                  Yes
4.2      Please provide any additional information on the effectiveness of the Organization’s Incident Management Program that was not noted in the
         questions above.
          No additional information reported.

Section 5: Risk Management



OIG Report - Annual 2012                                                                                                                                 Page 5 of 15
Section 5: Risk Management
5.1      Has the Organization established a risk management program that is consistent with FISMA requirements, OMB policy, and applicable NIST
         guidelines? Besides the improvement opportunities that may have been identified by the OIG, does the program include the following
         attributes:
          No
          5.1.1   Documented and centrally accessible policies and procedures for risk management, including descriptions of the roles and
                  responsibilities of participants in this process
                  Yes
          5.1.2   Addresses risk from an organization perspective with the development of a comprehensive governance structure and organization-wide
                  risk management strategy as described in NIST 800-37, Rev.1
                  No
          5.1.3   Addresses risk from a mission and business process perspective and is guided by the risk decisions at the organizational perspective,
                  as described in NIST 800-37, Rev.1
                  No
          5.1.4   Addresses risk from an information system perspective and is guided by the risk decisions at the organizational perspective and the
                  mission and business perspective, as described in NIST 800-37, Rev. 1
                  No
          5.1.5   Categorizes information systems in accordance with government policies
                  Yes
          5.1.6   Selects an appropriately tailored set of baseline security controls
                  Yes
          5.1.7   Implements the tailored set of baseline security controls and describes how the controls are employed within the information system
                  and its environment of operation
                  Yes
          5.1.8   Assesses the security controls using appropriate assessment procedures to determine the extent to which the controls are
                  implemented correctly, operating as intended, and producing the desired outcome with respect to meeting the security requirements for
                  the system
                  Yes



OIG Report - Annual 2012                                                                                                                                  Page 6 of 15
Section 5: Risk Management
          5.1.9    Authorizes information system operation based on a determination of the risk to organizational operations and assets, individuals,
                   other organizations, and the Nation resulting from the operation of the information system and the decision that this risk is acceptable
                   Yes
          5.1.10   Ensures information security controls are monitored on an ongoing basis including assessing control effectiveness, documenting
                   changes to the system or its environment of operation, conducting security impact analyses of the associated changes, and reporting
                   the security state of the system to designated organizational officials
                   Yes
          5.1.11   Information system specific risks (tactical), mission/business specific risks and organizational level (strategic) risks are communicated
                   to appropriate levels of the organization.
                   No
          5.1.12   Senior Officials are briefed on threat activity on a regular basis by appropriate personnel. (e.g., CISO).
                   No
          5.1.13   Prescribes the active involvement of information system owners and common control providers, chief information officers, senior
                   information security officers, authorizing officials, and other roles as applicable in the ongoing management of information
                   system-related security risks
                   Yes
          5.1.14   Security authorization package contains system security plan, security assessment report, and POA&M in accordance with
                   government policies. (SP 800-18, SP 800-37)
                   Yes
          5.1.15   Security authorization package contains Accreditation boundaries for Organization information systems defined in accordance with
                   government policies.
                   Yes
5.2      Please provide any additional information on the effectiveness of the Organization’s Risk Management Program that was not noted in the
         questions above.
          In July 2012, GAO issued report "INFORMATION SECURITY: Environmental Protection Agency Needs to Resolve Weaknesses," Report
          No. GAO-12-696.
                   Comments:       GAO reported that EPA did not (1) always effectively encrypt sensitive information, (2) effectively log and monitor system activity,
                                   (3) always implement media protection controls, and (4) document that system security controls were fully tested. GAO also found
                                   that System Security Plans referenced outdated policies and procedures.

OIG Report - Annual 2012                                                                                                                                             Page 7 of 15
Section 6: Security Training
6.1      Has the Organization established a security training program that is consistent with FISMA requirements, OMB policy, and applicable NIST
         guidelines? Besides the improvement opportunities that may have been identified by the OIG, does the program include the following
         attributes:
          Yes
          6.1.1   Documented policies and procedures for security awareness training (NIST 800-53: AT-1)
                  Yes
          6.1.2   Documented policies and procedures for specialized training for users with significant information security responsibilities
                  Yes
          6.1.3   Security training content based on the organization and roles, as specified in Organization policy or standards
                  Yes
          6.1.4   Identification and tracking of the status of security awareness training for all personnel (including employees, contractors, and other
                  Organization users) with access privileges that require security awareness training
                  Yes
          6.1.5   Identification and tracking of the status of specialized training for all personnel (including employees, contractors, and other
                  Organization users) with significant information security responsibilities that require specialized training
                  Yes
          6.1.6   Training material for security awareness training contains appropriate content for the Organization (SP 800-50, SP 800-53).
                  Yes
6.2      Please provide any additional information on the effectiveness of the Organization’s Security Training Program that was not noted in the
         questions above.
          In July 2012, GAO issued report "INFORMATION SECURITY: Environmental Protection Agency Needs to Resolve Weaknesses," Report
          No. GAO-12-696.
                  Comments:       GAO reported that the Agency needs to develop and finalize a role-based security training procedure that tailors specific training
                                  requirements to EPA users' role/position descriptions and details the actions information security officers must take when users do not
                                  complete the training.

Section 7: Plan Of Action & Milestones (POA&M)



OIG Report - Annual 2012                                                                                                                                             Page 8 of 15
Section 7: Plan Of Action & Milestones (POA&M)
7.1      Has the Organization established a POA&M program that is consistent with FISMA requirements, OMB policy, and applicable NIST
         guidelines and tracks and monitors known information security weaknesses? Besides the improvement opportunities that may have been
         identified by the OIG, does the program include the following attributes:
          Yes
          7.1.1   Documented policies and procedures for managing IT security weaknesses discovered during security control assessments and
                  requiring remediation
                  Yes
          7.1.2   Tracks, prioritizes and remediates weaknesses
                  Yes
          7.1.3   Ensures remediation plans are effective for correcting weaknesses
                  No
          7.1.4   Establishes and adheres to milestone remediation dates
                  Yes
          7.1.5   Ensures resources are provided for correcting weaknesses
                  Yes
          7.1.6   POA&Ms include security weaknesses discovered during assessments of security controls and requiring remediation. (Do not need to
                  include security weakness due to a Risk Based Decision to not implement a security control) (OMB M-04-25)
                  No
          7.1.7   Costs associated with remediating weaknesses are identified (NIST SP 800-53, Rev. 3, Control PM-3 and OMB M-04-25)
                  Yes
          7.1.8   Program officials and contractors report progress on remediation to CIO on a regular basis, at least quarterly, and the CIO centrally
                  tracks, maintains, and independently reviews/validates the POA&M activities at least quarterly (NIST SP 800-53, Rev. 3, Control
                  CA-5, and OMB M-04-25)
                  Yes




OIG Report - Annual 2012                                                                                                                                  Page 9 of 15
Section 7: Plan Of Action & Milestones (POA&M)
7.2      Please provide any additional information on the effectiveness of the Organization’s POA&M Program that was not noted in the questions
         above.
          In July 2012, GAO issued report "INFORMATION SECURITY: Environmental Protection Agency Needs to Resolve Weaknesses," Report
          No. GAO-12-696.
                  Comments:      GAO reported that (1) the manner in which the EPA uses the Automated System Security Evaluation and Remediation Tracking
                                 (ASSERT) tool for POA&Ms can preclude retrieval of specific POA&Ms and pose weaknesses with data reliability because entries
                                 lacked a specific description of each weakness and did not list the report where the weakness had initially been identified, and (2)
                                 ASSERT does not have built-in safeguards to keep individuals who have access to POA&Ms from altering initial milestone and
                                 completion dates.

Section 8: Remote Access Management
8.1      Has the Organization established a remote access program that is consistent with FISMA requirements, OMB policy, and applicable NIST
         guidelines? Besides the improvement opportunities that may have been identified by the OIG, does the program include the following
         attributes:
          Yes
          8.1.1   Documented policies and procedures for authorizing, monitoring, and controlling all methods of remote access (NIST 800-53: AC-1,
                  AC-17)
                  Yes
          8.1.2   Protects against unauthorized connections or subversion of authorized connections.
                  Yes
          8.1.3   Users are uniquely identified and authenticated for all access (NIST 800-46, Section 4.2, Section 5.1)
                  Yes
          8.1.4   Telecommuting policy is fully developed (NIST 800-46, Section 5.1)
                  Yes
          8.1.5   If applicable, multi-factor authentication is required for remote access (NIST 800-46, Section 2.2, Section 3.3)
                  Yes




OIG Report - Annual 2012                                                                                                                                           Page 10 of 15
Section 8: Remote Access Management
          8.1.6    Authentication mechanisms meet NIST Special Publication 800-63 guidance on remote electronic authentication, including strength
                   mechanisms
                   Yes
          8.1.7    Defines and implements encryption requirements for information transmitted across public networks
                   Yes
          8.1.8    Remote access sessions, in accordance to OMB M-07-16, are timed-out after 30 minutes of inactivity after which re-authentication are
                   required
                   Yes
          8.1.9    Lost or stolen devices are disabled and appropriately reported (NIST 800-46, Section 4.3, US-CERT Incident Reporting Guidelines)
                   Yes
          8.1.10   Remote access rules of behavior are adequate in accordance with government policies (NIST 800-53, PL-4)
                   Yes
          8.1.11   Remote access user agreements are adequate in accordance with government policies (NIST 800-46, Section 5.1, NIST 800-53, PS-6)
                   Yes
8.2      Please provide any additional information on the effectiveness of the Organization’s Remote Access Management that was not noted in the
         questions above.
          No additional information reported.

Section 9: Contingency Planning
9.1      Has the Organization established an enterprise-wide business continuity/disaster recovery program that is consistent with FISMA
         requirements, OMB policy, and applicable NIST guidelines? Besides the improvement opportunities that may have been identified by the
         OIG, does the program include the following attributes:
          Yes
          9.1.1    Documented business continuity and disaster recovery policy providing the authority and guidance necessary to reduce the impact of a
                   disruptive event or disaster (NIST 800-53: CP-1)
                   Yes




OIG Report - Annual 2012                                                                                                                                  Page 11 of 15
Section 9: Contingency Planning
          9.1.2    The Organization has performed an overall Business Impact Analysis (BIA) (NIST SP 800-34)
                   No
          9.1.3    Development and documentation of division, component, and IT infrastructure recovery strategies, plans and procedures (NIST SP
                   800-34)
                   Yes
          9.1.4    Testing of system specific contingency plans
                   Yes
          9.1.5    The documented business continuity and disaster recovery plans are in place and can be implemented when necessary (FCD1, NIST
                   SP 800-34)
                   Yes
          9.1.6    Development and fully implementable of test, training, and exercise (TT&E) programs (FCD1, NIST SP 800-34, NIST 800-53)
                   Yes
          9.1.7    Performance of regular ongoing testing or exercising of business continuity/disaster recovery plans to determine effectiveness and to
                   maintain current plans
                   Yes
          9.1.8    After-action report that addresses issues identified during contingency/disaster recovery exercises (FCD1, NIST SP 800-34)
                   Yes
          9.1.9    Systems that have alternate processing sites (FCD1, NIST SP 800-34, NIST SP 800-53)
                   Yes
          9.1.10   Alternate processing sites are subject to the same risks as primary sites (FCD1, NIST SP 800-34, NIST SP 800-53)
                   No
          9.1.11   Backups of information that are performed in a timely manner (FCD1, NIST SP 800-34, NIST SP 800-53)
                   Yes
          9.1.12   Contingency planning that consider supply chain threats
                   No




OIG Report - Annual 2012                                                                                                                                   Page 12 of 15
Section 9: Contingency Planning
9.2      Please provide any additional information on the effectiveness of the Organization’s Contingency Planning Program that was not noted in the
         questions above.
          In July 2012, GAO issued report "INFORMATION SECURITY: Environmental Protection Agency Needs to Resolve Weaknesses," Report
          No. GAO-12-696.
                   Comments:      GAO reported that (1) the Agency did not follow its own procedures or NIST guidance for approving contingency plans, reviewing
                                  them annually, and updating them as necessary; (2) EPA did not provide clear evidence that contingency plans were included in
                                  certification and authorization packages or evidence of having had an annual review; and (3) among the six plans reviewed, five did not
                                  provide full contact information for some staff listed, giving only office telephone numbers and e-mail addresses or, in some cases,
                                  office numbers alone.

Section 10: Contractor Systems
10.1     Has the Organization established a program to oversee systems operated on its behalf by contractors or other entities, including Organization
         systems and services residing in the cloud external to the Organization? Besides the improvement opportunities that may have been identified
         by the OIG, does the program includes the following attributes:
          Yes
          10.1.1   Documented policies and procedures for information security oversight of systems operated on the Organization's behalf by
                   contractors or other entities, including Organization systems and services residing in public cloud
                   Yes
          10.1.2   The Organization obtains sufficient assurance that security controls of such systems and services are effectively implemented and
                   comply with federal and Organization guidelines
                   Yes
          10.1.3   A complete inventory of systems operated on the Organization's behalf by contractors or other entities, including Organization systems
                   and services residing in public cloud
                   Yes
          10.1.4   The inventory identifies interfaces between these systems and Organization-operated systems (NIST 800-53: PM-5)
                   Yes




OIG Report - Annual 2012                                                                                                                                           Page 13 of 15
Section 10: Contractor Systems
          10.1.5   The Organization requires appropriate agreements (e.g., MOUs, Interconnection Security Agreements, contracts, etc.) for interfaces
                   between these systems and those that it owns and operates
                   Yes
          10.1.6   The inventory of contractor systems is updated at least annually.
                   Yes
          10.1.7   Systems that are owned or operated by contractors or entities, including Organization systems and services residing in public cloud,
                   are compliant with FISMA requirements, OMB policy, and applicable NIST guidelines
                   Yes
10.2     Please provide any additional information on the effectiveness of the Organization’s Contractor Systems Program that was not noted in the
         questions above.
          In July 2012, GAO issued report "INFORMATION SECURITY: Environmental Protection Agency Needs to Resolve Weaknesses," Report
          No. GAO-12-696.
                   Comments:      GAO reported that the Agency did not properly ensure that its inventory of information systems, including those systems operated by
                                  contractors, was accurate.

Section 11: Security Capital Planning
11.1     Has the Organization established a security capital planning and investment program for information security? Besides the improvement
         opportunities that may have been identified by the OIG, does the program include the following attributes:
          Yes
          11.1.1   Documented policies and procedures to address information security in the capital planning and investment control (CPIC) process
                   Yes
          11.1.2   Includes information security requirements as part of the capital planning and investment process
                   Yes
          11.1.3   Establishes a discrete line item for information security in organizational programming and documentation (NIST 800-53: SA-2)
                   Yes
          11.1.4   Employs a business case/Exhibit 300/Exhibit 53 to record the information security resources required (NIST 800-53: PM-3)
                   Yes



OIG Report - Annual 2012                                                                                                                                         Page 14 of 15
Section 11: Security Capital Planning
          11.1.5   Ensures that information security resources are available for expenditure as planned
                   Yes
11.2     Please provide any additional information on the effectiveness of the Organization’s Security Capital Planning Program that was not noted in
         the questions above.
          No additional information reported.




OIG Report - Annual 2012                                                                                                                                Page 15 of 15
                                                                                   Appendix A

            Summary of Significant Fiscal Year 2012
                  Security Control Audits
During fiscal year 2012, the EPA OIG published a number of audit reports on EPA’s information
technology security program and information systems. The following summarizes key findings:

1. Improvements Needed in EPA’s Network Security Monitoring Program, Report No.
   12-P-0899, September 27, 2012.

  EPA’s deployment of a Security Incident and Event Management (SIEM) tool did not comply
  with EPA’s system life cycle management procedures, which require planning project activities
  to include resources needed, schedules, and structured training sessions. EPA did not develop a
  comprehensive deployment strategy for the SIEM tool to incorporate all of EPA’s offices or a
  formal training program on how to use the tool. EPA does not have a computer security log
  management policy consistent with federal requirements. While EPA has a policy governing
  minimum system auditing activities to be logged, EPA has yet to define a policy for audit log
  storage and disposal requirements along with log management roles and responsibilities. EPA
  did not follow up with staff to confirm whether corrective actions were taken to address known
  information security weaknesses. EPA had not taken steps to address weaknesses identified
  from internal reviews as required. The Agency concurred with our recommendations.

2. EPA’s Office of Environmental Information Should Improve Ariel Rios and Potomac Yard
   Computer Room Security Controls, Report No. 12-P-0879, September 26, 2012.

  The security posture and in-place environmental control review of the computer rooms in the
  Ariel Rios and Potomac Yard buildings revealed numerous security and environmental control
  deficiencies. These control deficiencies greatly reduce the ability of the Office of
  Environmental Information (OEI) to safeguard critical information technology assets and
  associated data from the risk of damage and/or loss. The Agency agreed with two
  recommendations and disagreed with three other recommendations. OEI disagreed because it
  asserts that the Office of Administration and Resources Management bears responsibility for
  remediation for two of the recommendations, and for the other recommendation it stated that
  it is already monitoring environmental variable information. During the audit, the OIG
  requested policies and procedures that address limiting water damage to IT assets. OEI did
  not provide any documentation in response to this request and the OIG concluded that such
  policies did not exist. The OIG believes that OEI bears the responsibility for addressing these
  recommendations because OEI is responsible for managing IT assets in the Ariel Rios and
  Potomac Yard computer rooms.

3. EPA’s Radiation and Indoor Environments National Laboratory Should Improve Its
   Computer Room Security Controls, Report No. 12-P-0847, September 21, 2012.

  Our review of the security posture and in-place environmental controls of EPA’s Radiation
  and Indoor Environments National Laboratory computer room disclosed an array of security
  and environmental control deficiencies. These deficiencies greatly hinder the ability of the
  Office of Air and Radiation to safeguard critical information technology assets and associated
  data from the risk of damage and/or loss. The Agency concurred with our recommendations.

4. EPA Should Improve Management Practices and Security Controls for Its Network
   Directory Service System and Related Servers, Report No. 12-P-0836, September 20, 2012.

  OEI is not managing key system management documentation, system administration
  functions, the granting and monitoring of privileged accounts, and the application of
  environmental and physical security controls associated with its directory service system
  (DSS). OEI is not keeping management documentation associated with the DSS current and
  complete, and does not have an effective process for maintaining this documentation. Further,
  OEI is not performing user account administration practices for the DSS, and does not have a
  management oversight process to ensure that the regions and program offices are managing
  their delegated responsibilities in accordance with Agency and federal requirements. The
  Office of Administration and Resources Management’s Human Resources and Contractor
  Management systems and processes are not linked to the user account management function.
  OEI is also not managing the delegation of DSS logging and monitoring processes.
  OEI and the Office of Administration and Resources Management concurred with all
  recommendations, other than two associated with environmental and physical security
  controls, and completed or agreed to take corrective actions to address the recommendations
  with which they concurred. OEI indicated that the particular physical and environmental
  controls are not its responsibility. We disagree. The DSS Authentication and Authorization
  servers belong to OEI, which is responsible for managing this equipment. Therefore, OEI
  needs to ensure that these controls are in place.

5. EPA Did Not Properly Migrate General Ledger Balances to Compass From the Integrated
   Financial Management System, Report No. 12-P-0559, July 9, 2012.

  EPA did not properly migrate general ledger balances to Compass from the Integrated
  Financial Management System. We found differences in certain fiscal year 2012 beginning
  balances, abnormal balances, and Agency adjustments to beginning balances. The Federal
  Managers’ Financial Integrity Act requires agencies to provide reasonable assurance that
  accounts are properly recorded and accounted for to ensure reliability of financial reporting.
  The errors we found are indicators of internal control and oversight weaknesses in the
  migration of balances. The Agency stated it has taken corrective actions and will provide
  supporting documentation.

6. EPA Data Standards Plan Completed but Additional Steps Are Needed, Report No.
   12-P-0519, June 5, 2012.

  Although EPA completed the steps listed in its corrective action plan to close out the Agency-
  level weakness on data standards, the actions taken were either incomplete or lacked steps to
  help management determine the overall effectiveness of the Agency’s implementation of data
  standards. In particular, we determined that EPA developed a data standards training program.
  However, management took no steps to identify who needed the training, track whether the
  appropriate personnel took the training, or obtain feedback from staff on the training to
  ascertain the training’s effectiveness. Further, we determined that EPA created data standards
  report cards. However, these report cards are inaccurate because EPA offices did not update
  the system used to create the report cards. Also, the report card format is such that
  management could not clearly see whether individual offices were in compliance with data
  standards. Also, we determined that EPA completed two conformance reviews to determine
  system compliance with the data standards. However, management made no plans to conduct
  additional reviews. The Agency agreed with the recommendations.

7. Office of Environmental Information Should Strengthen Controls Over Mobile Devices,
   Report No. 12-P-0427, April 25, 2012.

  OEI has no organization-wide standard operating procedures that explain responsibilities for
  OEI employees and contractors regarding mobile devices. OEI currently does not have
  effective controls for the five areas of concern noted in the hotline complaint: issuance,
  disconnection, multiple devices, inappropriate use, and tracking and recovery. OEI has also
  not established controls to determine when to disconnect devices; over a 6-month period in
  2011, 68 OEI employees had zero usage of their mobile devices but incurred costs of about
  $29,360. Finally, procedures and controls for tracking and recovering mobile devices are
  missing or ineffective. OEI concurred with the majority of our recommendations and
  described planned actions to address our recommendations. Our recommendations remain
  open pending OEI’s corrective action plan with milestone dates, as well as additional
  specificity from OEI on monitoring inappropriate device usage.

8. Technical Vulnerability Assessments

  As part of the fiscal year 2012 FISMA audit, the OIG issued a series of network vulnerability
  reports to EPA offices to address high-risk and medium-risk vulnerabilities. The OIG met
  with EPA information security personnel to discuss the findings. If not resolved, these
  vulnerabilities could expose EPA’s assets to unauthorized access and potentially harm the
  Agency’s network.

         Results of Technical Network Vulnerability Assessment: EPA’s National Vehicle and
          Fuel Emissions Laboratory, Report No. 12-P-0900, September 27, 2012.
         Results of Technical Network Vulnerability Assessment: EPA’s Region 6, Report No.
          12-P-0659, August 10, 2012.
         Results of Technical Network Vulnerability Assessment: EPA’s Region 1, Report No.
          12-P-0518, June 5, 2012.
         Region 10 Technical and Computer Room Security Vulnerabilities Increase Risk to
          EPA’s Network, Report No. 12-P-0220, January 20, 2012.
                                                                                Appendix B

                                    Distribution
Office of the Administrator
Assistant Administrator for Environmental Information and Chief Information Officer
Deputy Assistant Administrator for Environmental Information
Director, Office of Technology Operations and Planning, Office of Environmental Information
Senior Agency Information Security Officer, Office of Environmental Information
Director, Technology and Information Security Staff, Office of Environmental Information
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Information
Audit Follow-Up Coordinator, Office of Environmental Information
